LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

March 31, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-255: MAHANOY AREA SCHOOL DISTRICT V. B.L. A MINOR, BY AND THROUGH
HER FATHER LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY
Dear Sir or Madam:
I hereby certify that at the request of Counsel for Amici Curiae Mary Beth
Tinker and John Tinker, on March 31, 2021, I caused service to be made pursuant to
Rule 29 on the following counsel for the Petitioner and Respondents:
PETITIONER:
Lisa Schiavo Blatt
Williams & Connolly LLP
725 12th Street, NW
Washington, DC 20005
202-434-5050
lblatt@wc.com

RESPONDENTS:
Witold J. Walczak
ACLU of Pennsylvania
P.O. Box 23058
Pittsburgh, PA 15222
412-681-7864
vwalczak@aclupa.org

This service was effected by depositing three copies of the Brief of Amici Curiae
Mary Beth Tinker and John Tinker in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 31st day of March 2021.

